<html>
<title> - SEARCHING FOR THE ORIGINS OF THE UNIVERSE: AN UPDATE ON THE PROGRESS OF THE JAMES WEBB SPACE TELESCOPE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





               SEARCHING FOR THE ORIGINS OF THE UNIVERSE:
                      AN UPDATE ON THE PROGRESS OF
                     THE JAMES WEBB SPACE TELESCOPE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

                           Serial No. 114-11

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov






                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-890 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          


              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR,          ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
BILL POSEY, Florida                  MARC A. VEASEY, Texas
THOMAS MASSIE, Kentucky              KATHERINE M. CLARK, Massachusetts
JIM BRIDENSTINE, Oklahoma            DON S. BEYER, JR., Virginia
RANDY K. WEBER, Texas                ED PERLMUTTER, Colorado
BILL JOHNSON, Ohio                   PAUL TONKO, New York
JOHN R. MOOLENAAR, Michigan          MARK TAKANO, California
STEVE KNIGHT, California             BILL FOSTER, Illinois
BRIAN BABIN, Texas
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                         Subcommittee on Space

                HON. STEVEN PALAZZO, Mississippi, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland,
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama,                  ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
BILL JOHNSON, Ohio                   DON S. BEYER, JR., Virginia
STEVE KNIGHT, California             EDDIE BERNICE JOHNSON, Texas
BRIAN BABIN, Texas
LAMAR S. SMITH, Texas

















                            C O N T E N T S

                             March 24, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven Palazzo, Chairman, 
  Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    13
    Written Statement............................................    15

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    16
    Written Statement............................................    17

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    18
    Written Statement............................................    19

                               Witnesses:

Dr. John Grunsfeld, Associate Administrator, Science Mission 
  Directorate, NASA
    Oral Statement...............................................    20
    Written Statement............................................    23

Ms. Cristina Chaplain, Director of Acquisition and Sourcing 
  Management, U.S. Government Accountability Office (GAO)
    Oral Statement...............................................    29
    Written Statement............................................    31

Mr. Jeffrey Grant, Vice-President & General Manager, Space 
  Systems, Northrop Grumman Corporation
    Oral Statement...............................................    51
    Written Statement............................................    53

Dr. John Mather, Senior Project Scientist, James Webb Space 
  Telescope, Goddard Space Flight Center, NASA
    Oral Statement...............................................    61
    Written Statement............................................    63

Discussion.......................................................    71

             Appendix I: Answers to Post-Hearing Questions

Dr. John Grunsfeld, Associate Administrator, Science Mission 
  Directorate, NASA..............................................    88

Ms. Cristina Chaplain, Director of Acquisition and Sourcing 
  Management, U.S. Government Accountability Office (GAO)........   136

Mr. Jeffrey Grant, Vice-President & General Manager, Space 
  Systems, Northrop Grumman Corporation..........................   146

Dr. John Mather, Senior Project Scientist, James Webb Space 
  Telescope, Goddard Space Flight Center, NASA...................   154

            Appendix II: Additional Material for the Record

Prepared statement submitted by Representative Eddie Bernice 
  Johnson, Ranking Member, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   162

 
               SEARCHING FOR THE ORIGINS OF THE UNIVERSE:
                    AN UPDATE ON THE PROGRESS OF THE
                       JAMES WEBB SPACE TELESCOPE

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Chairman Palazzo. Before we get started this morning, I 
would like to welcome a special group of students that we have 
visiting us here today, Lake Burke High School in Virginia. 
Welcome to the Science, Space, and Technology Subcommittee on 
Space. Thank you all for being here. I woke a couple of them 
up, I see. That is good. We haven't even got started yet.
    The Subcommittee on Space will come to order. Without 
objection, the chair is authorized to declare recesses of the 
Committee at any time.
    Welcome to today's hearing entitled ``Searching for the 
Origins of the Universe: An Update on the Progress of the James 
Webb Space Telescope.'' I recognize myself for five minutes for 
an opening statement.
    The James Webb Space Telescope represents a significant 
investment by the U.S. taxpayer and holds the promise of 
producing revolutionary science that one day may rewrite 
textbooks. It could change the way we perceive our universe, as 
well as our place in it. That is a lot to live up to.
    JWST continues the heritage of space-based great 
observatories. Leveraging the accomplishments of the Hubble 
Space Telescope, the Compton Gamma Ray Observatory, the Chandra 
X-ray Observatory, and the Spitzer Space Telescope, James Webb 
will provide revolutionary astronomical measurements in the 
long-wavelength visible and the mid-infrared range of spectrum. 
This will allow scientists to see light from the first stars, 
view the development of galaxies, and study the development of 
planets. The infrared range that the telescope will operate in 
allows the telescope to see through cosmic dust, view faint and 
dim targets, and observe phenomena such as redshift from the 
expanding universe. James Webb's unique vantage point from the 
Sun-Earth L2 is also an ideal location that will enable the 
observatory to make precise infrared measurements.
    The scientific returns from these observations will be 
compounded even more if James Webb remains on schedule and 
overlaps with existing observatories that continue to return 
significant science, or new assets such as the Stratospheric 
Observatory For Infrared Astronomy and the Transiting Exoplanet 
Survey Satellite that promise to complement James Webb's 
capabilities.
    This enormous potential is balanced by the sobering history 
of James Webb's development. Initially planned to cost $1.6 
billion and launch in 2011, the program ballooned to a 
lifecycle cost estimate of nearly $9 billion and slipped seven 
years to a 2018 launch date. James Webb's history is well 
known, and I do not wish to open old wounds, but Congress would 
be complicit in any future delays or overruns if it failed to 
maintain proper oversight of this program.
    Despite the significant progress made by NASA and the 
contractors, the program is not out of the woods yet. It is now 
entering the critical integration and testing phase where 
unforeseen problems typically arise. These unplanned technical 
challenges could threaten the cost and schedule reserves during 
this critical period. Recent issues with the cryocooler, a 
critical component that is necessary for proper measurements, 
reinforce the need for persistent monitoring and oversight. The 
sheer technical complexity of this program demands it.
    Even after the telescope is fully assembled, shipped to 
Kourou, and launched into space, all of us will still be 
crossing our fingers that this massive spacecraft will arrive 
at its intended destination and execute its intricately 
choreographed origami-like deployment. Everyone involved in 
this project is working to make it a success: the engineers and 
technicians, the contractors, the managers and scientists at 
NASA, and even the Members and Senators here on the Capitol 
Hill.
    In 2011, the House of Representatives voted to cancel the 
program after its cost estimates skyrocketed and threatened not 
only other astrophysics missions, but also Science Mission 
Directorate activities. The contagion of escalating costs even 
threatened other national priorities at NASA. Planetary science 
and even exploration programs have sacrificed funding to 
buttress James Webb and keep the program on track. With a 
statutory cost cap of $8 billion for development, Congress 
expressed both an endorsement and a limitation. For the sake of 
all of NASA's programs, I hope that James Webb will launch in 
line with its updated schedule and current cost projections.
    Even after launch, issues related to James Webb will 
remain. For instance, what will happen to the additional 
funding poured into the Science Mission Directorate to cover 
James Webb's overruns? Will the Astrophysics account maintain 
funding profiles consistent with these augmentations? Will the 
other programs and projects within the Science Mission 
Directorate return to their historical proportions after James 
Webb is launched? Will Exploration programs recoup the funding 
transferred to the James Webb program, or will these 
proportions represent the new norm?
    With overall budgets remaining flat or only increasing 
marginally, how the other $600 million a year devoted to James 
Webb will be reallocated after launch is one of the most 
important decisions facing NASA and Congress. In light of 
decreasing budget requests from the Administration for 
Exploration, it may be appropriate to reconstitute the programs 
that sacrificed funding to cover James Webb's cost growth.
    Before I conclude, I would like to take the opportunity to 
thank GAO for their diligent work on the James Webb program. As 
the program matures, questions are shifting from whether or not 
the cost, schedule, and technical plans are adequate to whether 
NASA and the contractors are executing to those plans. I hope 
GAO will continue to provide this Committee with insight into 
this complex program so that we can all ensure its ultimate 
success. I also hope that NASA and the contractors heed the 
GAO's advice and recommendations. More specifically, I hope 
that in the future, NASA and the contractors will allow the GAO 
access to information and personnel so that they can fulfill 
their statutorily required task to monitor this program on 
behalf of Congress. GAO's recent report highlighted instances 
where their access was limited. Transparency and accountability 
are tenets of sound program management and oversight. I trust 
that won't be a precedent for future engagements.
    [The prepared statement of Mr. Palazzo follows:]

              Prepared Statement of Subcommittee on Space
                        Chairman Steven Palazzo

    The James Webb Space Telescope (JWST) represents a significant 
investment by the U.S. taxpayer and holds the promise of producing 
revolutionary science that one day may rewrite textbooks. It could 
change the way we perceive our universe, as well as our place in it. 
That is a lot to live up to.
    JWST continues the heritage of space-based ``Great Observatories.'' 
Leveraging the accomplishments of the Hubble Space Telescope, the 
Compton Gamma Ray Observatory, the Chandra X-ray Observatory, and the 
Spitzer Space Telescope, JWST will provide revolutionary astronomical 
measurements in the long-wavelength visible and the mid-infrared range 
of spectrum. This will allow scientists to see light from the first 
stars, view the development of galaxies, and study the development of 
planets.
    The infrared range that the telescope will operate in allows the 
telescope to see through cosmic dust, view faint and dim targets, and 
observe phenomena such as redshift from the expanding universe. JWST's 
unique vantage point from the Sun-Earth L2 is also an ideal location 
that will enable the observatory to make precise infrared measurements. 
The scientific returns from these observations will be compounded even 
more if JWST remains on schedule and overlaps with existing 
observatories that continue to return significant science, or new 
assets such as the Stratospheric Observatory For Infrared Astronomy 
(SOFIA) and the Transiting Exoplanet Survey Satellite (TESS) that 
promise to complement JWST's capabilities.
    This enormous potential is balanced by the sobering history of 
JWST's development. Initially planned to cost $1.6 billion and launch 
in 2011, the program ballooned to a life-cycle cost estimate of nearly 
$9 billion and slipped 7 years to a 2018 launch date.
    JWST's history is well known, and I do not wish to open old wounds, 
but Congress would be complicit in any future delays or over-runs if it 
failed to maintain proper oversight of this program. Despite the 
significant progress made by NASA and the contractors, the program is 
not out of the woods yet. It is now entering the critical integration 
and testing phase where unforeseen problems typically arise. These 
unplanned technical challenges could threaten the cost and schedule 
reserves during this critical period. Recent issues with the 
cryocooler, a critical component that is necessary for proper 
measurements, reinforce the need for persistent monitoring and 
oversight. The sheer technical complexity of this program demands it. 
Even after the telescope is fully assembled, shipped to Kourou, and 
launched into space, all of us will still be crossing our fingers that 
this massive spacecraft will arrive at its intended destination and 
execute its intricately choreographed origami-like deployment.
    Everyone involved in this project is working to make it a success. 
The engineers and technicians at the contractors, the managers and 
scientists at NASA, and even the Members and Senators here on the 
Capitol Hill. In 2011, the House of Representatives voted to cancel the 
program after its cost estimates skyrocketed and threatened not only 
other astrophysics missions, but also other Science Mission Directorate 
activities. The contagion of escalating costs even threatened other 
national priorities at NASA. Planetary science and even exploration 
programs have sacrificed funding to buttress JWST and keep the program 
on track. With a statutory cost cap of $8 billion for development, 
Congress expressed both an endorsement and a limitation. For the sake 
of all of NASA's programs, I hope that JWST will launch in line with 
its updated schedule and current cost projections.
    Even after launch, issues related to JWST will remain. For 
instance, what will happen to the additional funding poured into the 
Science Mission Directorate to cover JWST over-runs? Will the 
Astrophysics account maintain funding profiles consistent with these 
augmentations? Will the other programs and projects within the Science 
Mission Directorate return to their historical proportions after JWST 
is launched? Will Exploration programs recoup the funding transferred 
to the JWST program, or will these proportions represent the new norm? 
With overall budgets remaining flat or only increasing marginally, how 
the over $600 million a year devoted to JWST will be reallocated after 
launch is one of the most important decisions facing NASA and Congress. 
In light of decreasing budget requests from the Administration for 
Exploration, it may be appropriate to reconstitute the programs that 
sacrificed funding to cover JWST cost growth.
    Before I conclude, I would like to take the opportunity to thank 
GAO for their diligent work on the JWST program. As the program 
matures, questions are shifting from whether or not the cost, schedule, 
and technical plans are adequate to whether NASA and the contractors 
are executing to those plans. I hope GAO will continue to provide this 
Committee with insight into this complex program so that we can all 
ensure its ultimate success. I also hope that NASA and the contractors 
heed the GAO's advice and recommendations.
    More specifically, I hope that in the future NASA and the 
contractors will allow the GAO access to information and personnel so 
that they can fulfill their statutorily required task to monitor this 
program on behalf of Congress. GAO's recent report highlighted 
instances where their access was limited. Transparency and 
accountability are tenets of sound program management and oversight. I 
trust that won't be a precedent for future engagements.

    Chairman Palazzo. At this time I now recognize the Ranking 
Member, the gentlelady from Maryland, for an opening statement.
    Ms. Edwards. Thank you very much, Mr. Chairman, and good 
morning and welcome to our distinguished panel of witnesses.
    Mr. Chairman, I want to thank you for calling this hearing 
to evaluate the development of the James Webb Space Telescope--
known as JWST--and discuss the science that the observatory 
will enable. This hearing also comes at a fortuitous time, on 
the eve of the 25th anniversary of the Hubble Space Telescope, 
and as an aside, I can remember when this exact same 
discussion, perhaps about the cancellation of Hubble, was part 
of the conversation in Congress, and thank goodness 25 years 
later, looking back on that, that we didn't do that because of 
the amazing, amazing work that has been done and the learning 
that has taken place over the course of those years, but that 
was the conversation more than 25 years ago, and a good thing 
that Congress didn't take those actions.
    Launched in April 1990, Hubble was the first major optical 
space-based observatory orbiting above the distortion of the 
atmosphere, and above rain, clouds, and light pollution. Many 
of today's younger generation have grown up with Hubble, and I 
dare say that most Americans have seen the awe-inspiring image 
taken by Hubble of the iconic Eagle Nebula capturing the famous 
``Pillars of Creation.''
    JWST is the next generation astrophysics observatory 
following Hubble. More capable and sensitive than Hubble, JWST 
is optimized to study infrared light from the universe, which 
will allow JWST to observe the first galaxies formed in the 
Universe. In addition, JWST will see solar systems forming in 
our galaxy and possibly detect the presence of liquid water on 
planets around other stars--an indicator that such a planet may 
indeed harbor life.
    Mr. Chairman, that is exciting and that is why I just can't 
wait for JWST to be launched and working. But I also recognize, 
as the Chairman has indicated, that the road to building JWST 
has not been an easy one. The observatory's history of cost 
growth and schedule delays has not gone unnoticed by the 
Congress. An independent review panel found in October 2010 
that a substantial funding increase would be needed to complete 
the observatory. As a consequence, NASA re-baselined the 
project in 2011 with a lifecycle cost estimate of $8.8 billion 
and a launch readiness date of October 2018. Congress indeed 
has done its share and funded JWST annually consistent with 
that re-baseline. We need to continue to do so.
    The Consolidated and Further Continuing Appropriations Act 
of 2012 directed the Government Accountability Office to report 
on the project on an annual basis. I appreciate GAO keeping 
Congress informed of that. With a launch now a little more than 
three years away and major integration tests looming ahead, 
NASA will be under pressure to demonstrate that it can meet the 
launch date within the cost estimate, and although the latest 
GAO report concludes that JWST remains on schedule and on 
budget, GAO also reported that ``technical challenges with JWST 
elements and major subsystems, however, have diminished the 
project's overall schedule reserve and increased risk.''
    At today's hearing, I hope to get answers on the following 
questions: What progress is being made in preparing scientific 
investigations and scientists who will capitalize on JWST's 
unique capabilities? And with three years until launch, what 
technical challenges and associated risks still remain? What 
steps are being taken by NASA and its contractors to ensure 
that cost and schedule commitments are met? And finally, what 
is the level of confidence that NASA will be able to meet the 
October 2018 launch date?
    Again, I want to thank our witnesses for appearing before 
our Subcommittee, and I do look forward to your testimony, and 
Mr. Chairman, I yield back.
    [The prepared statement of Ms. Edwards follows:]

              Prepared Statement of Subcommittee on Space
                    Ranking Member Donna F. Edwards

    Good Morning, and welcome to our distinguished panel of witnesses.
    Mr. Chairman, thank you for calling this hearing to evaluate the 
development of the James Webb Space Telescope--known as JWS--and 
discuss the science that the observatory will enable. This hearing 
comes at a fortuitous time, on the eve of the 25th Anniversary of the 
Hubble Space Telescope. Launched in April 1990, Hubble was the first 
major optical space-based observatory orbiting above the distortion of 
the atmosphere, and above rain, clouds, and light pollution. Many of 
today's younger generation have grown up with Hubble, and I dare say 
that most Americans have seen the awe-inspiring image taken by Hubble 
of the iconic Eagle Nebula capturing the famous ``Pillars of 
Creation.''
    JWST is the next generation astrophysics observatory following 
Hubble. More capable and sensitive than Hubble, JWST is optimized to 
study infrared light from the Universe, which will allow JWST to 
observe the first galaxies formed in the Universe. In addition, JWST 
will see solar systems forming in in our galaxy and possibly detect the 
presence of liquid water on planets around other stars--an indicator 
that such a planet may harbor life. Mr. Chairman, that is exciting and 
why I just can't wait for JWST to be launched and working.
    But I also recognize that the road to building JWST has not been an 
easy one. The observatory's history of cost growth and schedule delays 
has not gone unnoticed by the Congress. An independent review panel 
found in October 2010 that a substantial funding increase would be 
needed to complete the observatory. As a consequence, NASA rebaselined 
the project in 2011 with a life cycle cost estimate of $8.8 billion and 
a launch readiness date of October 2018. Congress has done its share 
and funded JWST annually consistent with that rebaseline. We need to 
continue doing so.
    The Consolidated and Further Continuing Appropriations Act of 2012 
directed the Government Accountability Office (GAO) to report on the 
project on an annual basis. I appreciate GAO keeping Congress informed. 
With launch now a little more than three years away and major 
integration tests looming ahead, NASA will be under pressure to 
demonstrate that it can meet the launch date within the cost estimate. 
And although the latest GAO report concludes that JWST remains on 
schedule and on budget, GAO also reported that ``[T]echnical challenges 
with JWST elements and major subsystems, however, have diminished the 
project's overall schedule reserve and increased risk.''
    At today's hearing, I hope to get answers on the following 
questions:

    <bullet>  What progress is being made in preparing scientific 
investigations and scientists who will capitalize on JWST's unique 
capabilities?
    <bullet>  With three years until launch, what technical challenges 
and associated risks still remain?
    <bullet>  What steps are being taken by NASA and its contractors to 
ensure that cost and schedule commitments are met? And
    <bullet>  What is the level of confidence that NASA will be able to 
meet the October 2018 launch date?
    <bullet>  Again, I want to thank our witnesses for appearing before 
our Subcommittee, and I look forward to your testimony.

    Mr. Chairman, I yield back.

    Chairman Palazzo. Thank you, Ms. Edwards.
    I now recognize the Chairman of the full Committee, Mr. 
Smith.
    Chairman Smith. Thank you, Mr. Chairman.
    Space exploration is an investment in our future--often the 
distant future. It encourages innovation and improves 
Americans' quality of life. It inspires the next generation to 
pursue careers in math, engineering, science, and technology. 
The James Webb Space Telescope, or JWST, is an example of such 
an investment. The astrophysics community identified the 
program as the top priority in 2001. The telescope will far 
surpass in size, power, and capability any previous space-based 
observatory launched by NASA. JWST is set to orbit nearly one 
million miles from Earth in the Earth-Sun Lagrange point. It is 
expected to observe the origin of the galaxies, provide 
insights into the early formation of stars and planets, and 
characterize exoplanets.
    The search for exoplanets and Earth-like planets is a 
relatively new but inspiring area of space exploration. 
Scientists have discovered hundreds of planets and solar 
systems in our own galaxy that we never knew existed. By 
developing and using new telescopes in conjunction with JWST, 
we may find biosignatures of life on other planets. For 
example, when examined from a distance, Earth's atmosphere 
contains large amounts of oxygen. When looked at through a 
large infrared telescope, like JWST, this biosignature would be 
detectable.
    The Transiting Exoplanet Survey Satellite, or TESS, is 
currently on track to launch in 2017. This telescope will 
survey the brightest stars close to Earth to find exoplanets. 
The survey will provide prime targets for JWST and future 
ground-based and space-based telescopes. TESS has a two-year 
planned mission life. It is critical to launch JWST in 2018, so 
enough overlap exists with the telescopes to maximize the 
scientific return.
    As the top priority mission in the 2010 astrophysics 
survey, the Wide-Field Infrared Survey Telescope, or WFIRST, 
will also contribute to the characterization of exoplanets. If 
funded properly, it could launch in time to significantly 
overlap with JWST. This would maximize the scientific return of 
both telescopes. Each is designed to view different but 
complimentary parts of the infrared spectrum needed to 
determine the composition of the atmosphere of exoplanets.
    WFIRST could also have a coronagraph for detecting imaging 
capabilities. This means the telescope will be able to help 
determine the chemical composition of a planet. The potential 
science to be gained from the combined use of these telescopes 
illustrates why it is important JWST be completed and launched 
in 2018. However, just as important to being launched on time, 
JWST must be completed within the congressionally mandated 
spending caps for the program. If JWST is unable to do this, it 
affects the ability to build future telescopes, like WFIRST.
    I look forward to hearing how development of the James Webb 
Space Telescope is progressing.
    And Mr. Chairman, before I yield back, let me apologize to 
Members and our witnesses today that I have another Committee 
that is in the process of marking up a bill that I need to go 
to and will be back I hope sometime soon. So while this is the 
most important hearing in D.C. today, I will just have to 
absent myself for a few minutes, so thank you.
    [The prepared statement of Mr. Smith follows:]

                  Prepared Statement of Full Committee
                        Chairman Lamar S. Smith

    Space exploration is an investment in our future--often the distant 
future. It encourages innovation and improves Americans' quality of 
life. It inspires the next generation to pursue careers in math, 
engineering, science, and technology.
    The James Webb Space Telescope, or JWST, is an example of such an 
investment.
    The astrophysics community identified the program as the top 
priority in 2001. The telescope will far surpass in size, power, and 
capability any previous space-based observatory launched by NASA.
    JWST is set to orbit nearly one million miles from Earth in the 
Earth-Sun Lagrange point. It is expected to observe the origin of the 
galaxies, provide insights into the early formation of stars and 
planets, and characterize exoplanets.
    The search for exoplanets and Earth-like planets is a relatively 
new but inspiring area of space exploration. Scientists have discovered 
hundreds of planets and solar systems in our own galaxy that we never 
knew existed.
    By developing and using new telescopes in conjunction with JWST, we 
may find biosignatures of life on other planets.
    For example, when examined from a distance, Earth's atmosphere 
contains large amounts of oxygen. When looked at through a large 
infrared telescope, like JWST, this biosignature would be detectable.
    The Transiting Exoplanet Survey Satellite, or TESS, is currently on 
track to launch in 2017. This telescope will survey the brightest stars 
close to Earth to find exoplanets. The survey will provide prime 
targets for JWST and future ground-based and space-based telescopes.
    TESS has a two year planned mission life. It is critical to launch 
JWST in 2018, so enough overlap exists with the telescopes to maximize 
the scientific return.
    As the top priority mission in the 2010 astrophysics survey, the 
Wide-Field Infrared Survey Telescope, or WFIRST, will also contribute 
to the characterization of exoplanets.
    If funded properly, it could launch in time to significantly 
overlap with JWST. This would maximize the scientific return of both 
telescopes. Each is designed to view different but complimentary parts 
of the infrared spectrum needed to determine the composition of the 
atmosphere of exoplanets.
    WFIRST could also have a coronagraph for direct imaging 
capabilities. This means the telescope will be able to help determine 
the chemical composition of a planet.
    The potential science to be gained from the combined use of these 
telescopes illustrates why it is important JWST be completed and 
launched in 2018.
    However, just as important to being launched on time, JWST must be 
completed within the congressionally mandated spending caps for the 
program. If JWST is unable to do this, it affects the ability to build 
future telescopes, like WFIRST.
    I look forward to hearing how development of the James Webb Space 
Telescope is progressing.

    Chairman Palazzo. Thank you, Mr. Smith.
    At this time I would like to introduce our witnesses. Our 
first witness today is Dr. John Grunsfeld, Associate 
Administrator for NASA's Science Mission Directorate. He 
previously served as Deputy Director of the Space Telescope 
Science Institute managing the Science Program for both Hubble 
and the James Webb Space Telescope. Dr. Grunsfeld has worked 
for NASA since 1992 and is a veteran of five space shuttle 
flights. Dr. Grunsfeld received a bachelor's degree in physics 
from the Massachusetts Institute of Technology and both a 
master's degree and doctorate in physics from the University of 
Chicago.
    Our second witness, Ms. Cristina Chaplain, has been a U.S. 
Government Accountability Office employee for 23 years and 
currently serves as the Director of Acquisition and Sourcing 
Management. In this capacity, she is responsible for GAO 
assessments of military space acquisitions and NASA. She has 
led reviews of the Space Launch System, the International Space 
Station, and the James Webb Space Telescope, among others. 
Prior to her current position, Ms. Chaplain worked with GAO's 
Financial Management and Information Technology Teams. She 
received her bachelor's in international relations from Boston 
University and a master's degree in journalism from Columbia 
University.
    Our third witness is Mr. Jeffrey Grant. Mr. Grant has 
served in numerous positions within Northrop Grumman and is 
currently Sector Vice President and General Manager of Space 
Systems at Northrop Grumman Aerospace Systems. Prior to joining 
Northrop Grumman, Mr. Grant was Vice President and Chief 
Technical Officer for Astrolink International LLC. Before 
joining the private sector, Mr. Grant served for 21 years in 
the CIA in the National Reconnaissance Office. Mr. Grant 
received a bachelor's of science in ocean engineering from the 
Florida Institute of Technology.
    I now recognize our Ranking Member, Ms. Edwards, to 
introduce our final witness.
    Ms. Edwards. Thank you, Mr. Chairman.
    I am honored today to introduce Dr. John Mather, who is the 
Senior Project Scientist on the James Webb Space Telescope and 
a Senior Astrophysicist in the Observational Cosmology 
Laboratory at NASA's Goddard Space Flight Center. I am also 
proud to say that Dr. Mather is a resident of the 4th 
Congressional District of Maryland. Seldom does this 
Committee--Subcommittee--have the privilege of welcoming as a 
witness a dedicated federal civil servant who is also a Nobel 
Prize laureate, but today we do.
    Among his many awards and accomplishments, Dr. Mather, 
along with George Smoot, received the 2006 Nobel Prize in 
Physics for work in cementing the Big Bang theory of the 
universe, an effort characterized by the Nobel Prize Committee 
as ``the starting point for cosmology as a precision science.'' 
We welcome Dr. Mather to today's hearing and look forward to 
his testimony.
    Chairman Palazzo. Thank you, Ms. Edwards.
    I would like to remind our witnesses, please limit your 
testimony to five minutes. Your entire written statement will 
be included in the record, and at this time we will open 
testimony to Dr. Grunsfeld.

                TESTIMONY OF DR. JOHN GRUNSFELD,

                    ASSOCIATE ADMINISTRATOR,

               SCIENCE MISSION DIRECTORATE, NASA

    Dr. Grunsfeld. Chairman Palazzo, Ranking Member Edwards, 
and Members of the Subcommittee, I am delighted to appear 
before you to discuss the status of the James Webb Space 
Telescope program.
    Our mission at NASA is to innovate, explore, discover and 
inspire. Science at NASA seeks to answer fundamental questions 
about our universe and our place in it. To view the first stars 
in the universe, study distant galaxies, probe newborn stars 
and planetary systems, and measure the composition of the 
atmospheres of planets around other stars, and to let us study 
our own outer solar system in detail, as never before possible, 
we are building the James Webb Space Telescope.
    This next great space observatory remains within budget and 
on track to meet its October 2018 launch date. Built to image 
and study the faint infrared signals from the earliest stars 
and galaxies, JWST features a 21.5-foot diameter primary 
mirror, making this the largest telescope ever constructed for 
space. JWST will extend our view of the universe, building on 
the great discoveries made by the Hubble Space Telescope, and 
as the chairman said, many other observatories, with truly 
transformational exploration capabilities.
    Since re-planning the program nearly four years ago, JWST 
has remained within its yearly budgets. Critical to our success 
has been adequate funding reserves, enabling the project to 
address issues as they arise without deferring significant 
work. The project has done an excellent job doing this and 
remains on schedule. The FY 2016 budget request for the James 
Webb Space Telescope is the same amount called for in the 2011 
re-baseline, another indicator that the plan is sound.
    JWST is a complex observatory, operating at cryogenic 
temperatures, the first of its kind. As a result, we included 
additional schedule reserve above NASA's usual formula, 
totaling 13 months of funded schedule reserve. This reserve was 
distributed throughout the span of the project to allow for 
resolution of issues as they occur. In nearly four years, this 
reserve has been reduced by only three months so that as of 
today, we have ten months of funded schedule reserve. In fact, 
we have more schedule reserve today than we had planned to at 
this point and more than is customary for NASA missions at this 
stage.
    This year is an important year for JWST development. We 
will complete all of the planned work on the Integrated Science 
Instrument Module. The 18 mirror segments will be mounted to 
their support structure. The five sunshield membranes will be 
manufactured and work will continue on the acquisition of parts 
and integration of the spacecraft bus. After 2015, almost all 
of the manufacturing will be complete. Our future activities on 
JWST will involve integration of major hardware elements and 
testing of those components.
    As has been noted, there are several technical areas that 
currently have the greatest attention from management. For 
example, the Mid-InfraRed Instrument requires a special 
refrigeration unit, or cryocooler, to cool its detectors to 
roughly minus 449 degrees Fahrenheit. The design and 
development of this cryocooler has proven to be quite 
challenging. Today, two-thirds of the cryocooler hardware has 
been delivered. The remaining third of the hardware is 
undergoing final assembly and testing with a planned delivery 
in three months.
    NASA worked closely with GAO in support of the yearly 
studies of the JWST program. In response to the latest GAO 
recommendations, the JWST project initiated a cost-risk 
analysis of the Northrop Grumman prime contract portion of the 
JWST program. The results of this analysis show that as of July 
2014, the program budget is sufficient to complete the Northrop 
tasks on schedule including accommodation for anticipated 
risks. The GAO also recommended NASA make changes to our 
performance evaluation plans for JWST's award fee contracts. In 
response, NASA has modified its performance evaluation plans 
for the NASA-Northrop and NASA-Exelis contracts fee for the 
award fee determination.
    The JWST team has been making exceptional progress with 
significant accomplishments being realized on all of the 
project elements. Now, nearly four years into the re-plan, the 
program is within budget and on schedule with adequate reserves 
for both budget and schedule. We are soon to enter the exciting 
and challenging integration and test phase. The rigorous cost, 
schedule and risk controls that have been employed over the 
last four years give me confidence that we will be ready to 
launch this ambitious observatory in 2018.
    The scientific promise of the James Webb Space Telescope is 
great. The team engaged in its development is world-class in 
its experience and capabilities. Programs like the James Webb 
Space Telescope demonstrate to the world that NASA leads the 
way in expanding the frontiers of human inquiry and innovation. 
When we build projects like JWST, we push industry to stretch 
beyond their capabilities, and they rise to the task, 
strengthening our competitiveness.
    The success of JWST is a result of a great team working 
together including your Subcommittee and GAO, and I want to 
thank you both for your efforts.
    I am happy to answer any questions you have about this 
fantastic observatory. Thank you.
    [The prepared statement of Dr. Grunsfeld follows:]
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Palazzo. Thank you, Dr. Grunsfeld.
    I now recognize Ms. Chaplain.

              TESTIMONY OF MS. CRISTINA CHAPLAIN,

        DIRECTOR OF ACQUISITION AND SOURCING MANAGEMENT,

          U.S. GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Ms. Chaplain. Chairman Palazzo, Ranking Member Edwards, and 
Members of the Subcommittee, thank you for inviting me today to 
discuss the GAO's work on the James Webb Telescope. As you may 
know, we were reported--we were mandated to report annually on 
the program after it experienced a 78 percent cost increase 
over its baseline and a 52-month delay. At the time the program 
was being re-planned, there were significant concerns raised 
about optimistic estimates, low reserves, ineffective 
oversight, and poor communication. In response to our mandate, 
we have issued three detailed reports on James Webb. Also, we 
have been assessing James Webb as part of our broader annual 
assessment of NASA's major projects known as the Quick Look, 
and I am happy to say that that report is being released today.
    This year, we reported that James Webb is still on track 
with its 2011 cost and schedule baselines. A great deal of 
progress has been made in developing individual components of 
the telescope and in overcoming some technical challenges. 
However, the project is beginning to lose schedule reserve as 
it has struggled to resolve issues such as workmanship and 
manufacturing problems with the cryocooler dedicated to the 
MIRI instrument. We reported that overall schedule reserve had 
declined to 11 months, and another month was lost since our 
report was issued. While 10 months is still a lot of time and 
well within the criteria the program follows, there are still 
reasons to be concerned about the decline.
    First, the project faces the very difficult phases of 
integration and testing. Most space projects encounter problems 
they did not expect to encounter in this phase. Second, a 
number of activities have to happen sequentially. The further 
you go into integration, the less flexibility you have to 
resolve problems in parallel. Third, there are several elements 
near the project's critical path which further limits the 
project's flexibility.
    The types of technical problems James Webb is experiencing 
are not unusual for a complex and unique project. They are an 
inherent aspect of pushing technological design and engineering 
boundaries. What is important when managing such a project is 
having a good picture of risk, which can shift day to day, and 
having good tools for mitigating risks as they surface and 
knowing how they affect your ultimate cost and schedule goals.
    NASA has taken an array of actions following the 2011 re-
plan to enable the program to have better insight into risk. 
However, we reported that NASA had not updated the cost and 
schedule estimate known as the Joint Confidence Level, or JCL, 
nor had the contractor updated the risk analyses that underpin 
the estimate. In conducting our work in 2014, we determined 
that a current and independent cost-risk analysis was needed to 
provide the Congress with insight into the remaining work on 
the Northrop Grumman prime contract, the largest and most 
expensive portion of the work remaining for James Webb.
    A key reason for this determination was and continues to be 
the significant potential impact that any additional cost 
growth on James Webb would have on NASA's broader portfolio 
science projects. Our preference would have been for NASA to 
have updated the JCL and to have addressed the fundamental 
flaws of documents that supported it. We were unable to conduct 
this analysis, though, because Northrop Grumman did not allow 
us to conduct anonymous interviews of technical experts without 
a manager present.
    In order to collect unbiased data, interviewees must be 
assured that their opinions on risk and opportunities remain 
anonymous. This is a key best practice and a fundamental part 
of our methodology. Unbiased data would have allowed us to 
provide a credible assessment of risks remaining for the work 
ahead. Any time we are denied access to people or documents, we 
are concerned since it could be a sign that an entity is afraid 
of what we will find, but I will balance that by noting that 
the program and Northrop have been very candid with us in 
discussions about risk and in supplying information about risk 
and that our relationships have otherwise been very productive.
    Moreover, in response to our findings, NASA agreed to 
undertake its own cost-risk analysis of the Northrop contract, 
which was provided to us shortly before the hearing. NASA is 
also using a new analysis of earned value management data, 
which should provide the project with additional insight on how 
current risks affect cost and schedule goals. These analyses 
look promising, and we look forward to assessing them in our 
next review. What will be important for NASA is to see the 
results of these analyses to manage its program and to candidly 
report on its progress to Congress.
    Thank you, and I am happy to answer any questions you have.
    [The prepared statement of Ms. Chaplain follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    Chairman Palazzo. Thank you, Ms. Chaplain.
    I now recognize Mr. Grant.

                TESTIMONY OF MR. JEFFREY GRANT,

               VICE-PRESIDENT & GENERAL MANAGER,

          SPACE SYSTEMS, NORTHROP GRUMMAN CORPORATION

    Mr. Grant. Chairman Palazzo, Ranking Member Edwards, and 
distinguished Members of the Committee, it gives me a great 
deal of pleasure to appear before you today on behalf of the 
men and women of Northrop Grumman who are working on the James 
Webb Space Telescope, and I am honored to appear with you today 
with these three other distinguished witnesses.
    Mr. Chairman, it has been over just three years ago since I 
last appeared before the Committee and discussed the program, 
and I am really pleased to report today that the program 
remains on track, both in terms of schedule and funding for 
successful 2018 launch. That is not to say that we have not had 
challenges. A program of this complexity will invariably be 
confronted by significant hurdles. We have successfully met the 
challenges we knew about in 2011 and most of those that have 
occurred since. The MIRI cryocooler, our latest challenge, has 
proven a difficult one but one that we continue to make 
significant progress in completing the last subassembly of that 
complex cooler.
    Those Members of the Committee that were here three years 
ago may recall the path that we laid out to get to a 2018 
launch. It was very challenging, but we communicated that it 
was executable. We have a solid design as evidenced by the 
successful spacecraft critical design review that occurred in 
January of 2014 and a renewed focus and a plan that we are now 
executing to.
    The major technical risk reduction work is in fact behind 
us and we are now entering the phase of the program where the 
major risks are in the integration and test phase. Now, despite 
that, we anticipate that new challenges will emerge, and we 
recognize the need to do better at addressing these. That is 
why we continue to incorporate risk reduction activities into 
the plan to increase our confidence of meeting that launch 
schedule. For example, the optical telescope pathfinder will be 
used to trailblaze the optical testing at the Johnson Space 
Center in 2017, and the sunshield full-scale development model 
will undergo another full-scale deployment test this summer. In 
addition, we will be performing early mating of the Optical 
Telescope Element and the spacecraft bus this summer in advance 
of the flight mate in 2017.
    Mr. Chairman, the 2011 re-baseline has been instrumental in 
our ability to manage challenges with prudent cost and schedule 
reserve across the fiscal years. The distributed schedule slack 
has proven crucial in our ability to manage problems as they 
have occurred within allowable reserves. In fact, all major 
subsystems have above plan schedule margin remaining, and we 
currently are maintaining 10 months of funded slack in our 
schedule. With less than four years to go before launch, this 
amount of schedule contingency is appropriate for a program of 
this type and provides adequate contingency for unexpected 
challenges that may arise.
    Similarly, we continue to evaluate actions to contain cost 
and our financial controls have been designed to ensure 
contractual discipline to avoid unintended cost.
    I want to assure the Committee at every level that Northrop 
Grumman remains dedicated to a successful mission overcoming 
these hurdles. As we move closer to the 2018 launch date, the 
next few years will be critical. Our immediate focus is 
finishing the fabrication and assembly of the spacecraft and 
sunshield, integrating optics onto the assembled back plane and 
completion of the MIRI cryocooler. The focus will then shift to 
integration and testing of the Optical Telescope Element, the 
Integrated Science Instrument Module, and assembling the 
spacecraft and sunshield into a single system. This Committee's 
support is essential to keeping the program on cost and on 
schedule for that 2018 launch.
    Mr. Chairman, I hope that my pride and enthusiasm in JWST 
and our partners is evident. From the technicians in the clean 
room to our CEO, Northrop Grumman remains fully committed to 
the success of this mission. I want to assure the Committee 
that we are taking our role seriously and are doing our part to 
address the technical and programmatic challenges before us. We 
remain confident in launching in 2018 within the 
congressionally mandated development cost.
    I look forward to working with NASA as it leads this 
amazing effort and with the Committee to ensure that this 
program is a success. So I want to thank you again for asking 
me to appear before your Committee and welcome your questions. 
Thank you.
    [The prepared statement of Mr. Grant follows:]
   
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Palazzo. Thank you, Mr. Grant.
    I now recognize Dr. Mather.

                 TESTIMONY OF DR. JOHN MATHER,

                   SENIOR PROJECT SCIENTIST,

                  JAMES WEBB SPACE TELESCOPE,

               GODDARD SPACE FLIGHT CENTER, NASA

    Dr. Mather. Chairman Palazzo, Representative Edwards, and 
Members of the Subcommittee, thank you for the warm welcome.
    I am pleased to appear before you to discuss the scientific 
mission of the James Webb Space Telescope. I have been a 
telescope builder all my life. Since I was about eight years 
old, I have wanted to know how did we get here. When I was a 
kid, nobody really knew, so I became a telescope builder. Quite 
a few years later, I won a Nobel Prize, but despite our 
progress, profound questions remain, and I think JWST is the 
most important project I could be working on.
    JWST will be the premier observatory of the next decade. To 
understand JWST's scientific mission, we need to briefly review 
our current picture of the universe. The picture has been 
painted almost entirely, thanks to work initiated at NASA and 
made possible by longstanding Congressional support.
    We know today that the universe is nearly 13.8 billion 
years old. For the first 400,000 years after the Big Bang, the 
universe had no distinct objects in it and was a hot soup of 
fundamental particles such as free protons and electrons. Light 
could not travel very far through that hot soup. Around the 
400,000-year mark, the universe went from being opaque to 
transparent. The afterglow of this era is what we see as the 
cosmic microwave background. Our NASA team won the Nobel Prize 
in 2006 for its study of this radiation.
    The emergence of the first stars probably came when the 
universe was a few hundred million years old. We think that 
these first stars were 30 to 300 times as massive as our Sun 
and millions of times as bright, burning for only a few million 
years before exploding in supernovae, but we have never seen 
them. Even Hubble can't see them. JWST will let us see them.
    So why do we need an infrared telescope to see that first 
light? Imagine light leaving the first stars nearly 13.4 
billion years ago and traveling through space and time to reach 
our telescopes. We are essentially seeing these objects as they 
were 13.4 billion years ago, but because the universe has been 
expanding, the light was emitted by these first stars and 
galaxies as visible or ultraviolet light actually got shifted 
to redder wavelengths by the time it reached us. So we need to 
see it in the infrared.
    Also, to unravel the birth and early evolution of stars, we 
need to be able to peer into the hearts of dense and dusty 
cloud cores where star formation occurs. These regions cannot 
be observed at visible light wavelengths as the dust makes such 
regions opaque. JWST's infrared instruments will let us do 
that.
    JWST will also look for planets in other solar systems. The 
first planet outside our solar system was discovered in 1992. 
Since then, we have come to the realization that planets are in 
fact quite common. One essential objective of JWST is to 
observe planets orbiting in the habitable zone of their star 
where it is possible for liquid water and perhaps even life to 
exist.
    An infrared telescope needs to be cooled down to a lower 
temperature so it does not emit too much of its own infrared 
light. To make it cold, we need to put it in deep space where 
it can be shielded from the heat and light of both Earth and 
the Sun. It needs to be shielded from the infrared energy 
produced by its own spacecraft, so JWST will have a tennis-
court-sized sunshield that will unfold in space. One of JWST's 
four instruments also requires a refrigerator that uses gaseous 
helium to keep its detectors at about negative 449 degrees 
Fahrenheit.
    At this point, I would like to show you a 1-minute 
animation of the deployment of the Webb telescope. Let me see 
if it going to go. Yes, so it is going. JWST's primary mirror 
will be composed of 18 hexagonal units made of beryllium, a 
material light enough that you could pick up one of those units 
yourself but which can be machined and polished until it has 
essentially perfect curvature. If you were to stretch this 
material the length of the United States, the difference 
between the peaks and valleys would be about three inches. This 
is an amazing telescope.
    JWST is an excellent example of what can be done by 
international partnerships to solve very difficult engineering 
challenges. The United States is leading a very capable 
partnership that includes the European and Canadian space 
agencies. Scientific discoveries know no boundaries, and 
international cooperation has been very successful for NASA.
    Beyond its scientific returns, JWST will also be an amazing 
educational tool as Hubble has been. Nearly every science 
classroom in the country has posters and teaching materials 
from Hubble. Every astronomy textbook is illustrated with 
Hubble pictures. NASA materials are proven to be among the most 
useful to classroom teachers, and JWST will provide great new 
material.
    We are an exceptional country for even dreaming up 
something like JWST, and we are close to seeing this dream 
realized. Astronomers will use the telescope to make stunning 
discoveries and rewrite our textbooks again.
    Thank you for listening, and I would be happy to answer any 
questions you have.
    [The prepared statement of Dr. Mather follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Palazzo. Thank you, Dr. Mather.
    I thank the witnesses for their testimony, reminding 
Members that Committee rules limit questioning to five minutes. 
The chair will at this point open the round of questions. The 
chair recognizes himself for five minutes.
    Dr. Grunsfeld, GAO's testimony indicates that the JWST 
program has ten months of reserve left, down one month from 
December. The program is now entering the critical integration 
phase and all the subsystems are at risk of becoming the 
critical path and driving the overall project schedule. This 
limits flexibility precisely at the time flexibility is most 
needed. Are you confident that the current plan is robust 
enough to address the risks facing the program?
    Dr. Grunsfeld. Thank you, Chairman, for that question.
    As I mentioned in my testimony, we have a plan that was 
assembled at the time of the Joint Confidence Level estimate 
through the 2011 re-plan that laid out how we will use all of 
our schedule reserve, and that is based on a history of similar 
projects and something that we have shared with the GAO 
extensively. That burn-down plan assumes that risk is mitigated 
as we go along the project to solve problems that we discover, 
and so far the project has been doing really well on solving 
problems without using that schedule reserve, and as I 
mentioned, as a result, we are carrying 10 months of schedule 
reserve, which is a little bit more than we expected to have at 
this time. That is the best posture to be in, to have a little 
bit more schedule reserve than you expect because we are 
getting into the test and integration phase where things, you 
know, might pop up that we haven't anticipated with this large, 
complex observatory, especially as we go into the testing at 
the Johnson Space Center with the optics starting with the 
pathfinder and then the optics in a couple of years.
    So I am confident that with 10 months of schedule reserve 
and the known problems we have now that we have adequate 
schedule reserve for the July 2018 launch--sorry. The October 
2018 launch.
    Chairman Palazzo. And this is another question, Dr. 
Grunsfeld. The President's budget request for Fiscal Year 2016 
is for $620 million. This is consistent with the JWST's 2011 
re-plan budget. We are aware that in the original plan, Fiscal 
Year 2016 was expected to require less funding because 
development of instruments and components was anticipated to 
have been completed. However, with so much integration and 
testing left to complete, are you confident that the $620 
million is still sufficient?
    Dr. Grunsfeld. We have the $620 in the 2016 request, and 
the out years, which are notional requests, the same numbers 
that were in the original re-plan, and in those numbers there 
is a considerable amount of budget reserve, and in the same way 
as schedule reserve, that budget reserve is there to solve 
problems.
    Now, in Fiscal Year 2015, we have allocated a lot of that 
reserve for known problems through the end of the fiscal year, 
and we plan ahead with known problems to try and use reserves. 
So at the present time, the $620 million Fiscal Year 2016 
request we believe is adequate to complete all of the work as 
the funding going out to launch.
    Chairman Palazzo. Dr. Grunsfeld, and this is also for Dr. 
Mather if he cares to answer, how would a cost overrun or 
schedule slip affect other Astrophysics projects, Science 
Mission Directorate programs or overall NASA priorities, and 
what would NASA cut to ensure that the JWST stays on schedule?
    Dr. Grunsfeld. Well, the first priority is to keep JWST on 
cost and on budget--sorry--on budget and on schedule, and we 
are working very hard to do that. We have adequate cost 
reserves and adequate schedule reserve, I believe, to make the 
October 2018 launch without, you know, any kind of a cost 
overrun.
    As you know, any time you have a portfolio of projects and 
programs, and NASA has quite a few, in the event something 
overruns, you have to look at what the tradeoffs are. I think 
it is instructive to look at the Astrophysics budget 
historically over many decades, starting with the great 
observatories, and certainly through the last ten years, and 
you will see that if you look at the combination of 
Astrophysics plus James Webb Space Telescope, that budget has 
been essentially flat. You know, there were very limited 
transfers, if any, from other programs into James Webb, and so, 
you know, the cost growth has been contained within this 
general Astrophysics budget. So we are confident that with the 
budget we have and with the schedule reserve we have, we will 
be able to make it on cost and on schedule.
    Chairman Palazzo. Dr. Mather, would you care to add to 
that?
    Dr. Mather. I think actually I agree with that he said 
quite well. Thanks.
    Chairman Palazzo. So no one wants to really throw out there 
what NASA would cut to ensure James Webb Space Telescope stays 
on schedule? I don't blame you. Probably not smart.
    Ms. Chaplain--and then I will move on to questions--are 
there any preliminary observations on the updated cost-risk 
analysis that NASA performed that you can share?
    Ms. Chaplain. So we just received the analysis fairly 
recently. We need to do more in-depth assessments. But on the 
surface, they look pretty good, and NASA indicated it followed 
not only its own good practices but GAO's as well, so we look 
forward to assessing them.
    We have also looked at the other earned value management 
analysis that they are employing that takes earned value 
management a step further and looks at risks integrated with 
cost and schedule and can do more predictive things for the 
program, and on that surface, that looks good as well.
    Chairman Palazzo. Okay. So you haven't had a chance to 
definitely dig into it to confirm that they followed NASA's 
best practices as well as GAO's best practices but they told 
you they did but you are going to dig into it----
    Ms. Chaplain. Right.
    Chairman Palazzo. --when you have more time?
    Ms. Chaplain. Yeah, we need to look at the underlying data 
and talk with them about what they did. There are certain 
methodological things they probably didn't do that we would 
have done like interview the engineers separately and get a 
good story on what they thought their costs and risks were at 
that point, but the methodology they did employ does--is in 
line with good practices.
    Chairman Palazzo. And so it also would probably be too 
early to ask you whether or not you have recognize any 
weaknesses in their analysis?
    Ms. Chaplain. Correct. The only--you know, right now we 
can't say what the weaknesses are. Correct.
    Chairman Palazzo. Well, thank you.
    At this time I yield to the Ranking Member, Ms. Edwards.
    Ms. Edwards. Thank you very much, Mr. Chairman, and again, 
thank you to the witnesses.
    I want to follow up in looking at the schedule reserve in 
light of what still needs to be done, particularly as we enter 
the integration and testing phase.
    Dr. Grunsfeld, you mentioned--or I think Ms. Chaplain 
actually mentioned that we hadn't--there hadn't been a JCL 
since the 2011, and so my question--and I understand that is a 
really intensive process and we don't want to do something that 
is going to take us away from the game of actually getting the 
work done, but what is it that we could learn in a JCL or some 
formation of that that gives us the kind of confidence that we 
need going into this integration and testing phase that the 
reserves that are available are sufficient to meet the problems 
that inevitably will occur? Dr. Grunsfeld and then Ms. 
Chaplain.
    Dr. Grunsfeld. The Joint Confidence Level assessment is a 
great tool and it is based on a probabilistic assessment so 
looking at the probabilities of future events when you don't 
know how long individual parts will take to assemble, how much 
they will actually cost. So it is a great tool after the study 
phase of a mission when we are actually looking at the designs, 
and we want to predict, you know, 3, 4, five years out into the 
future. When you are actually in implementation of a project 
and you have real hardware and you know what the individual 
schedules are in great detail, it doesn't make really sense to 
do a probabilistic forecast because you already have the 
information that is contained in those probability 
distributions. So it is really just an inappropriate tool to 
use in a very mature project.
    Now, a cost-risk analysis is a much more sensitive thing--
sensible thing to do because now you have actual costs, actual 
risks. You can't assign probabilities to those risks, and that 
is what the cost-risk analysis takes into account and is a best 
practice by GAO.
    Ms. Edwards. So Ms. Chaplain, do you agree with that?
    Ms. Chaplain. We would recommend that you update the JCL at 
any rate. It is a good practice to be especially updating the 
cost and schedule estimates themselves, and especially because 
the program as it has had more experience could feed that 
experience into the models. Well, you did say it is an 
intensive process and we recognize that. Once you have the 
model down and everything in place, it is not as difficult to 
update. But as far as updating even the cost and schedule 
pieces of that estimate, it is a good practice to do that on a 
regular basis.
    Ms. Edwards. I guess I just wonder if we have some--if 
there are some elements that we already have in place that 
allow us the luxury of being able to have a greater confidence 
in the program and then it is going to meet the cost, the 
budget and assuming the risks. Dr. Grunsfeld?
    Dr. Grunsfeld. Thank you. I think the salient point is that 
right now we are in the middle of managing a complex project, 
and there are various time scales on which we do that. To 
perform a new Joint Confidence Level assessment, we would end 
up in some number of months with a new estimate and we could 
measure against that, but it is kind of like, you know, 
changing the goalpost over time if we get numbers that are 
different. We think it is much more sensible and as a practical 
management approach is--and we accepted the cost-risk analysis 
but really is to manage the program with the cost, with the 
reserves, measure how we are doing, and that is why we are 
using the earned value management, which is a management tool 
including some predictive measures, and then we can measure 
whether we are ahead or behind those predictions, and all of 
the predictions were based on the original JCL. If we ended up 
somewhere where we had a very large perturbation, then it would 
make more sense to go back and say okay, based on this, you 
know, perturbation adjustment, whatever it is where we have to 
re-baseline, then we would definitely do the JCL. I think in 
the meantime, based on our program guidelines, we will continue 
to do the cost-risk analysis and especially continue to manage 
on the daily, monthly, quarterly basis our earned value 
management and our standard project management processes.
    Ms. Edwards. Thank you.
    I want to go to Mr. Grant really quickly. So one of the big 
risks right now is the status of the technical design of the 
cryocooler, and so I wonder if you can tell me whether the 
problems that you were faced with are finally behind us? And 
you indicated in your prepared statement that all the cooler 
subsystems have been delivered to Goddard and JPL except one. 
What subsystem is that and when will it be shipped to JPL?
    Mr. Grant. Ms. Edwards, the cryocooler program is a very 
difficult technical challenge. I think in my prepared statement 
that I describe it as at operating at 6 degrees Kelvin, very 
much colder than previous cryocoolers we have built, and it 
deploys. It is separated from the instrument package by about 
30 feet. The mechanical complexities, the heat transfer 
complexities, the exported force complexities have made this a 
very challenging job, in fact, more challenging than we 
anticipated.
    We have made great progress, though. We have delivered 
components to Goddard and to JPL, and we are now down to the 
CCA. It is the cryocooler assembly that is in test today, bake-
out testing, and we are--we have got significant performance 
measurements made that show it meets its spec, which is great 
news, and now we are in the final stages of assembly, and we 
are scheduled to deliver that to JPL in June of this year.
    Ms. Edwards. So we will be asking about that because I 
think the problem is that we are gone down now to 10 months of 
reserve, and the question is, how much of the cryocooler that 
has been such a problem is going to eat into that reserve to 
leave enough reserve to stay on budget and on cost for the 
integration and testing phase, and with that, I think my time 
is like just done. Thanks.
    Chairman Palazzo. I now recognize Mr. Brooks from Alabama.
    Mr. Brooks. Thank you, Mr. Chairman.
    Dr. Grunsfeld and Dr. Mather, will you please provide 
examples of how the James Webb Space Telescope, the 
Stratospheric Observatory For Infrared Astronomy, the 
Transiting Exoplanet Survey Satellite, or TESS, as it is 
commonly known, will work together in exoplanet research?
    Dr. Grunsfeld. Certainly, and I appreciate that question. 
The Transiting Exoplanet Survey Satellite is very much like the 
Kepler satellite that has discovered thousands of planets 
orbiting stars in our galaxy. Kepler has been staring at a 
region of space that is rather far away from the Earth, and it 
sees as the planet goes between us and the stars a little blink 
of light. The Transiting Exoplanet Survey Satellite is going to 
be very similar except instead of looking at this one distant 
region of space and the constellation Cygnus, it is going to 
survey all the nearest stars around our home solar system, 
around the Earth, and so it is going to give us the address of 
where there are transiting exoplanets around each of those 
stars.
    The advantage we have of a planet that transits, that goes 
between us and the star, is that we can actually then measure 
the components of the atmosphere as that starlight goes through 
the atmosphere of the planet, and so having the locations and 
types of all of these exoplanets will allow the James Webb 
Space Telescope to do spectroscopy or to break the light from 
those atmospheres into its component colors and allow us to 
determine, you know, whether there is water vapor in the 
atmosphere, whether there is, you know, characteristics that 
might indicate even high-altitude clouds, for instance, color 
changes that would tell us the composition of those 
atmospheres. So this is an extraordinarily exciting 
possibility.
    The Stratospheric Observatory For Infrared Astronomy works 
in a different wavelength than James Webb Space Telescope. The 
Hubble Space Telescope operates from the near-ultraviolet to 
the near-infrared and encompasses the colors that we see--
visible light. The James Webb Space Telescope picks up in that 
near-infrared and extends out to the mid-infrared and the SOFIA 
observatory extends from the mid-infrared further out, and so 
there are many objects where we want to do spectroscopy to 
understand the composition, for instance, of molecular clouds 
that contain organic materials, very much like what we are made 
out of, and it will be the synthesis of the Hubble, the James 
Webb Space Telescope, the SOFIA observatory and also on the 
ground, the ALMA, Atacama Large Millimeter Array, that is 
really going to be able to put together the picture of how 
these objects work--how these objects, you know, were formed, 
how they evolve, how organic molecules in these objects formed 
that eventually may have seeded planets like the Earth before 
we were around.
    Mr. Brooks. Dr. Mather, do you have anything to add?
    Dr. Mather. Yeah, just a few things. One thing to mention 
about the Stratospheric Observatory is that they can fly 
frequently with different instruments that are improved as the 
technology improves, and they have already included--there are 
some extremely high-spectral resolution equipment. Spectral 
resolution separates the colors into over 100,000 different 
wavelengths, and from that you can determine isotopic 
compositions and all kinds of remarkable details about the 
things you are looking at. So it is very complementary to and 
different from the other observatories we were talking about. 
So it is not something we could put into the James Webb 
Telescope.
    Mr. Brooks. As you all may recall, there was an initial 
problem with the Hubble Telescope that required astronauts 
going up to fix it. Should we encounter a difficulty with the 
James Webb Space Telescope and the need to repair it, can it be 
repaired, and if so, how?
    Dr. Grunsfeld. I have already volunteered that if there is 
a problem, you all can send me.
    Mr. Brooks. We will need a spacecraft first. I hope NASA 
still----
    Dr. Grunsfeld. We will need a spacecraft, and if we have 
problems, it may be a one-way trip, which you all say I will 
deserve.
    Mr. Brooks. Well, I prefer the two-way trip.
    Dr. Grunsfeld. But the first thing is that we are working 
extraordinarily hard, and the folks on the project and at 
Northrop Grumman and all of the contractors to make sure that 
we don't need to go to James Webb for servicing. There is an 
enormous amount of redundancy built in for the actuating parts 
of the James Webb Space Telescope because it does have to 
origami, unfold like a transformer. So we have dual motors, we 
have dual sensors, a lot of testing to make sure that 
everything will deploy as required.
    While there is no servicing or fixing designed into it, as 
a relatively small mitigation, we are putting rendezvous 
sensors on the outside of the spacecraft so that if we ever had 
to go there for some reason or if, you know, there was some 
future reason to go, we would be able to, you know, align a 
spacecraft for docking. But otherwise there is no planned 
servicing.
    Mr. Brooks. So if I understand correctly, the James Webb 
Space Telescope is designed for docking but right now we are 
inhibited because we do not have a vehicle that can get us 
there. Is that a fair statement?
    Dr. Grunsfeld. I wouldn't quite say it is designed for 
servicing or for docking, but because it has a payload adapter 
ring, which is how it was attached or will be attached to the 
Ariane 5 rocket, that ring is, by definition, a place that one 
could interface with, and we just think it is prudent to put on 
some sensors, some little stickers essentially with fiducial 
marks so that if we ever did have to go there, we would know 
how to orient ourselves.
    Mr. Brooks. Thank you, Mr. Chairman. I see my time is 
expired.
    Chairman Palazzo. I now recognize Mr. Beyer.
    Mr. Beyer. Thank you Mr. Chairman, and I thank all of you 
for being with us today.
    I have some science questions on JWST, and now that we have 
a Nobel Prize-winning physicist here, Dr. Mather, Dr. Grunsfeld 
said that JWST extends our view of the universe, and you said 
it the most important project you could be working on, so three 
quick questions.
    Will this give us insight into dark energy and dark matter? 
Second, the Planck Epoch, zero to ten the negative forty four 
seconds before the Big Bang, I understand from visiting CERN 
that we can only get so far back in understanding how close we 
are to zero. Does this help us get farther back? And finally, 
the asymmetry of matter and antimatter, you know, the present 
and the universe, will this help us understand that fundamental 
asymmetry?
    Dr. Mather. Gosh, such easy questions.
    Mr. Beyer. It is $8.8 billion.
    Dr. Mather. So I will answer them. For the dark energy, 
which was discovered based on measurements with the Hubble 
Space Telescope, we will be able to pursue the same technique 
only a lot better because we can see farther and we can use 
infrared light to do it. So we know the supernovae, which are 
used as standard candles, are better candles, better standards 
measured in the infrared. So number one, yes, we will pursue 
the dark energy.
    Dark matter is observed indirectly because it has 
gravitation. So it bends light, and we have seen that in many 
places, sometimes even--recently we found a supernova that was 
seen four times in different places as the light was bent four 
different directions around a galaxy and between. So we will be 
continuing to pursue that method of measuring the presence of 
dark matter through its gravitational effects.
    About the Planck Epoch, that is probably outside our 
territory. That is something that we expect to pursue through 
measurements of the polarization of the cosmic microwave 
background radiation, and there is already work underway, and 
there was a probably false alarm about a year ago that I am 
sure you saw where claims were made about gravitational waves 
of the early universe. Better measurements will come out soon, 
I think. We certainly expect them.
    About the asymmetry of matter and antimatter, I don't know 
of any measurement that we could make that would affect that 
question. It is one of the most puzzling mysteries of science, 
and we know that there is no place in the universe that has 
got--that is like a dark matter--sorry--an antimatter galaxy. 
If there were, we would see an area where the two regions were 
colliding and there would be annihilation energy coming out. So 
we are pretty sure the whole universe is full of ordinary 
matter, and there isn't any antimatter left except tiny traces. 
So we will work on it but I don't think we are going to answer 
that question.
    Mr. Beyer. Thank you, Dr. Mather, very much.
    Dr. Grunsfeld, I was looking at the very sophisticated 
piece of literature here, our comic book, and it talks about 
how JWST is going to be in orbit around this theoretical point 
L2, a straight line from the Sun to the Earth L2. It is very 
cool, but what is at L2 that is going to allow that to orbit 
around? All my understanding of orbiting is, it is based on 
gravitational forces, and--or is it just self-correcting 
engines on the satellite itself?
    Dr. Grunsfeld. The L refers to Lagrange, which was a 
mathematician, and he computed that there would be these points 
in space where the gravitational force of the Earth and the Sun 
are balanced such that it is kind of stable so that if you put 
something there it would stay there. And so if you think about 
the Earth and the Sun, between the Earth and the Sun there is a 
point that you can orbit and an object would get dragged along 
by the Earth at the same speed as the Earth as it rotates the 
Sun. We call that the L1 Lagrange point, and we just sent the 
DSCVR mission there, for instance.
    The L2 point is on the other side of the Earth and it is an 
imaginary point just because there is nothing there--James Webb 
will be there. But it is gravitationally stable but it is not 
perfectly stable. If James Webb were to drift off, we would 
have to fire some little jets to come back, and so that is that 
point.
    Mr. Beyer. Thank you, Dr. Grunsfeld.
    And one last question. Mr. Grant, Ms. Chaplain talked about 
her difficulty doing the anonymous interviews with Northrop 
Grumman folks without a manager present. We had a lot of 
discussion here on secret science, on transparency. What was 
Northrop Grumman's problem with allowing the anonymous 
interviews or the interviews without managers present?
    Mr. Grant. The issue that we had when this request was made 
was, a request to interview about 30 of our--we call them CAMs, 
cost accountant managers, which are reasonably junior 
employees. They are responsible for small work packages. And I 
became concerned when the interview technique, it wasn't just 
anonymous but isolating our junior employees with a group from 
GAO, and these are people who are not prepared to come testify 
before Congress or in fact in this kind of environment, and so 
I had a great fear that this interview technique would result 
in frankly my employees being very, very concerned. This is not 
how they would normally do their business. And so in my 
discussions with Ms. Chaplain, I offered in fact some 
alternatives. We are very open to having transparency and full 
access to the data, but this kind of process to our individual 
employees concerned me enough that I said we will take the 
management of JWST aside but I wanted somebody from the 
functional organization so a mechanical engineer assigned to 
the James Webb Space Telescope program would have his 
functional manager with him in this interview process. So she 
is accurate in saying no manager so I was willing to separate 
the JWST team management from this interview process but 
unwilling to send these employees in by themselves. So that is 
the essence.
    Mr. Beyer. Thank you, Mr. Chairman.
    Chairman Palazzo. The chair now recognizes Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Dr. Grunsfeld and Dr. Mather, how would a cost overrun or 
schedule slip affect other Astrophysics projects, Science 
Mission Directorate programs or overall NASA priorities? And 
you can decide who goes first on that.
    Dr. Grunsfeld. Well, Mr. Johnson, thank you for that 
question. The first part of my answer is that currently we are 
on budget, on schedule. We have adequate budget reserves and 
schedule reserves to make our October 2018 launch date.
    Mr. Johnson. But that wasn't the question. The question 
was, how would a cost overrun or schedule slip affect those 
projects?
    Dr. Grunsfeld. In the event we were to encounter some 
problem that required, you know, a cost overrun or some kind of 
slip, as we balance all of our projects and programs, you know, 
we manage sometimes to an ensemble level, and it is just the 
realities of Federal budgeting process. So if some project does 
overrun, then we have to look at, you know, future projects 
typically to delay them or, you know, change the phasing of 
funding to allow to keep, you know, the projects that are close 
to completion on track.
    Mr. Johnson. Dr. Mather, do you have anything to add to 
that?
    Dr. Mather. No. He says the same thing I would say.
    Mr. Johnson. Okay. Do you have a list of what those 
priorities might be? What would NASA cut to ensure JWST stays 
on schedule? Do you have any specifics?
    Dr. Grunsfeld. So at the moment, in the Astrophysics budget 
and the JWST budget, you know, if you look at the sum of those 
two, you know, that is approximately the historical level of 
the NASA Astrophysics budget, and as the chairman said in his 
opening remarks, one of the big questions going forward in 
future budget eras is where will the funding for the James Webb 
Space Telescope go as it ramps down from its main development 
phases, and NASA has not yet decided on what that future 
mission might be. Several Members have discussed the WFIRST 
mission, Wide-Field Infrared Survey Telescope. This was 
suggested by the Decadal Survey on Astronomy and Astrophysics 
in the last round and is a major priority for Astrophysics and 
something that we are studying in great detail. NASA has not 
decided to go forward with that. Once we do decide that that is 
a new mission and we are examining that, then the launch date 
for that would be an adjustable parameter based on available 
budget, technical and, you know, something we would manage too.
    Mr. Johnson. Okay. Thank you.
    Ms. Chaplain, what does GAO see as the greatest risk to the 
JWST program?
    Ms. Chaplain. At this point the greatest risk is on the 
technical side as they first resolve the technical challenges 
that face them today like with the cryocooler, and as they get 
deeper in integration and testing, what problems they might 
encounter there and how are they going to fix them.
    The business side is not as much of a risk at this point 
because they do have a lot of schedule reserve, they do have 
pretty good tools in place for managing the program. They are 
pretty rigorous about tracking what is going on, so in our 
view, the issues now that we will be intensely focusing on are 
technical issues as well as risk management issues.
    Mr. Johnson. Okay. Well, back to you again, Ms. Chaplain. 
You said your annual Quick Look review of NASA's major programs 
was just released, so how does JWST compare to other NASA 
programs in terms of planning, management, performance and 
execution?
    Ms. Chaplain. So it doesn't stack up very well when you 
consider the cost growth that has already occurred. If you take 
all the projects together, there is 29--25.9 percent cost 
growth overall in the development side, but if you took James 
Webb out of that picture, the cost growth for NASA projects 
would go down to 2.4 percent. So just its nature, it is a big 
project on the portfolio. It comprises 33 percent of the major 
projects right now, so anything that happens there does have an 
impact on other programs, and that prior cost growth, though it 
hasn't come back, is still there kind of overwhelming the other 
projects at this point.
    Mr. Johnson. Okay. All right. Well, thank you, and thank 
you all for being with us.
    Mr. Chairman, I yield back the remainder of my time.
    Chairman Palazzo. The chair now recognizes Mr. Babein--Mr. 
Babin. I just wanted to see if you were going to correct me on 
it.
    Mr. Babin. Thank you, Mr. Chairman.
    I would like to thank the witnesses for being here. Reading 
your bios, very notables, and long ago in the line of 
questioning, I think Dr. Grunsfeld actually did 58 hours of 
spacewalking in EVAs to do some of those Hubble repairs. Is 
that not the case?
    Dr. Grunsfeld. That is correct.
    Mr. Babin. Well, thank you. Thank you for all your 
distinguished careers, and I appreciate you two, and 
congratulations on your Nobel, Dr. Mather.
    I represent Texas District 36, which has Johnson Space 
Center in it, and if I am not mistaken, I think some of this 
testing, quite a bit of the testing, on JWST is going on at 
Johnson Space Center, which I am very proud to represent and 
certainly want to see great big things continue to go and 
happen at JSC.
    But in light of all the cost overruns and the problems that 
we have had, I do have some questions about the project, and I 
would like to ask Dr. Grunsfeld and Ms. Chaplain how confident 
you are that JWST has enough resources now, both in terms of 
cost and schedule reserves, to execute the commitments that we 
now--that you now have.
    Dr. Grunsfeld. I am very confident that, you know, as of 
now we have 10 months of schedule reserve and we are 
maintaining adequate budget reserves to meet the October 2018 
launch date. There are a number of issues that, you know, I 
worry about, if you were to say what keeps me awake at night. 
We are making great progress on the cryocooler. You know, there 
are a bunch of technical issues. We have a lot of great 
communication across the whole project now from, you know, 
daily meetings that the project manager has and communication 
with us. We have our new program director. We announced that 
yesterday, Eric Smith. You know, he has, you know, daily, 
weekly, monthly meetings. We meet routinely with GAO to talk 
about our progress. But there are some things that we just 
don't control, and for instance, one of those is that we have 
three major tests at the Johnson Space Center in that great 
chamber A, and we are starting some of the testing now on the 
pathfinder, and if any of the Members have an opportunity to go 
there, I highly recommend that you see this. This is where we 
tested the Apollo Command Module. It is enormous, and that 
reflects the great size of the James Webb Space Telescope.
    But one of my worries has been, you know, that we have 
three multiple-month test periods at the Johnson Space Center, 
and having lived there for 18 years, I have had to leave my 
home occasionally for hurricanes. You know, what happens if we 
are testing during a hurricane. And so I have interrogated the 
project on what is our mitigation, and I have been down to the 
Johnson Space Center several times talking to the engineers and 
the operators of that chamber, and they have great plans in 
place, and the James Webb Space Telescope can actually survive 
through a hurricane without significant interruptions of the 
testing, and you know, they have assured me that even those 
kind of risks are incorporated into our modeling to make the 
October 2018 launch date. So I am very confident that we have a 
very sound plan.
    Mr. Babin. That is great. Thank you. And Ms. Chaplain, did 
you want to add anything to that?
    Ms. Chaplain. So 10 months of reserve is a long time, and 
the cost reserve is very healthy, and I don't often get to 
testify on programs with that kind of luxury in terms of 
reserve, but it is also a very complicated program and its test 
program itself is 7 years--integration and testing is seven 
years long, and the thing to keep in mind with 10 months of 
reserve is, you need certain amounts of time for each phase of 
testing so you can only apply certain amounts of reserves with 
each phases. So if a major problem does come up, you don't 
necessarily have 10 whole months to fix it without disrupting 
other parts of the schedule. So we are still concerned about 
schedule but they are in a healthy position at this point.
    Mr. Babin. Thank you. Thank you very much.
    One other question, and this would be for Dr. Grunsfeld. 
You actually--both you and Ms. Chaplain addressed this to a 
certain extent a while ago, but does NASA share GAO's concern 
about the amount of schedule risk remaining in the program?
    Dr. Grunsfeld. I would say absolutely. In terms of, you 
know, my personality but also that of Robert Lightfoot, our 
Associate Administrator, Charlie Bolden, you know, we are all 
very concerned about the risks and the schedule reserve in the 
sense that we are for every single program we manage. You know, 
I generally would not say that I am comfortable with any of our 
projects because that is just my personality and that is one of 
the ways that we do so well in managing our projects and 
programs is, you know, to stay a little bit uncomfortable and 
keeps us on edge.
    Mr. Babin. I understand.
    Dr. Grunsfeld. I am confident but I wouldn't ever say 
comfortable until we launch. The best place for a spacecraft 
like James Webb Space Telescope is in space.
    Mr. Babin. Amen. Thank you very much, all of you, and thank 
you, Mr. Chairman.
    Chairman Palazzo. Thank you, Mr. Babin.
    The chair now recognizes Mr. Posey.
    Mr. Posey. Thank you, Mr. Chairman.
    I really appreciate the incredibly wonderful and exciting 
things that you do and what the James Webb Space Telescope will 
do for us. Obviously I have a serious interest in gaining and 
maintaining public support for our space programs. There is a 
lot of misconception, as you all know. Poll after poll has 
shown people think we spend as much as 25 percent of our budget 
on our space program when you know it is less than one-half of 
one percent, and they hear you are spending over $600 million 
more on a space telescope and they say what is in it for me. I 
mean, how do you articulate to the average American family, who 
may have no idea what the telescope does, how it is going to 
benefit them?
    Dr. Grunsfeld. Well, let me start and then maybe ask John 
Mather to comment additionally.
    I mentioned in my testimony that one of the great things we 
do in this country is challenge industry to do hard things in 
the name of science, in the name of fundamental questions about 
our universe, and when we challenge industry to do that, it 
forces them to grow. It increases our competitiveness. It also 
attracts the best and brightest minds to come to the United 
States and to rise in the United States to help solve these 
problems, to study astronomy, to study astrophysics so perhaps 
they can win a Nobel Prize in the future.
    Mr. Posey. But that may be a little bit over the head of 
the average taxpayer is what I am talking about. This booklet 
you have is really excellent material for those of us who 
already have an interest in it and for a teacher who has a 
chance to maybe impart that hunger into students, but I am just 
wondering, you know, how we quantify, you know, how it benefits 
the national security, the economic stability or the survival 
of the species that we make that connection when we are talking 
about this expensive product which is very necessary for our 
future, I think, but that we haven't really managed to connect 
with the average American about the importance.
    Dr. Grunsfeld. There are some circles where I can talk 
about the contributions of the James Webb Space Telescope as 
the largest space telescope we have ever built, segmented 
optics, the first time we will have flown a large space 
telescope with segmented optics to, say, national security. The 
average person that I talk to when I am giving an astronaut 
talk, you know, they don't have an appreciation of that.
    But I am glad you mentioned, you know, the effect on 
teachers. The Hubble Space Telescope, for instance, reaches 
more than half a million teachers a year, 6 million students a 
year, and is viewed by 9 million people, and those----
    Mr. Posey. I heard that. I got that, and I love that----
    Dr. Grunsfeld. --are important.
    Mr. Posey. --but, you know, how do we connect with the 
average American family who is, you know, worried about their 
job, you know, worried about feeding their family, being able 
to finance their kids' education? How can we explain to them 
that spending the money on this telescope, which I think is 
very important, obviously, should be that important to them?
    Dr. Grunsfeld. I think, you know, if you talk about NASA, 
generally my experience has been that people understand why we 
invest in NASA. We are investing in America's future. We are 
investing in future technology. We are investing in innovation. 
And most people have the same questions that we have as 
scientists, that drove us to become scientists, about, you 
know, where did we come from, where are we going, are we alone 
in the universe, and that NASA is providing the tools to answer 
those questions. Those fundamental questions are the same for 
everybody, and when you can talk about that we are only 
spending, you know, less than half of one percent of our 
Federal investment on investing in the future, I think people 
do resonate with that.
    Mr. Posey. Doctor?
    Dr. Mather. I would certainly agree that that is why we do 
it and why the public loves us to do it. I used to ride the 
subway in New York City and i would be sitting there with my 
astronomy book, and people would say what is that, tell me 
about it, where did we come from. The public is really 
interested in this, and when they are not working to support 
their families, they say where did I come from, are we the only 
ones here in this entire universe or not, and I think we are 
getting towards being able to answer their questions. People 
just have a deep passion to know where did we come from, our 
genealogy, our history, everything about how we got here to 
this amazing Committee room here in Washington, D.C. They want 
to know how did that happen. So I think we should help them 
answer that question.
    Mr. Posey. Thank you.
    Ms. Edwards. Will the gentleman yield for just a minute?
    Mr. Posey. Yes, I will yield.
    Ms. Edwards. Mr. Posey, perhaps Dr. Grunsfeld might want to 
respond to your question by answering us how the JWST program 
has enabled a number of improvements in measuring human eyes 
and the diagnosis of ocular diseases and improved surgery for 
eyes as a connection to people. Dr. Grunsfeld?
    Dr. Grunsfeld. I would love to talk about that. Thank you 
very much.
    You know, sometimes what we call spinoffs are bit 
tangential, but in this case, and Dr. Mather mentioned it, I 
was in a very early James Webb Space Telescope meeting where 
they were talking about the smoothness of the mirrors, and I 
started scribbling in my notebook to figure out what if you 
stretched one of those mirrors, a single 1.5-meter beryllium 
mirror, to the size of the United States, how big would the 
bumps be, and he already told you, the average bumps would only 
be about 3 inches tall if you stretched those mirrors to the 
size of the United States. This is an astonishingly smooth 
surface. In order to generate that amazingly smooth surface, 
you know, the engineers at Ball Aerospace had to come up, you 
know, with algorithms and techniques of measuring what the 
shape of the mirror is to that extremely fine detail, and that 
is actually--those tools have already been incorporated into 
the kind of techniques and tools that ophthalmologists use to 
measure the shape of the human eyeball in order for the laser 
surgery and other techniques, you know, to correct human 
vision. And so there is many, many examples of these kind of 
things.
    Mr. Posey. Well, that was kind of my point, you know. I 
mean, listen, we mostly sell steak in space, you know, and Winn 
Dixie and Publix and all the supermarkets don't advertise 
steak, they advertise sizzle, you know, and so we are all 
interested in the steak but the public needs to know a little 
bit more of the sizzle, you know. And if somebody asks about, 
you know, decrease the possibility or probability of you going 
blind because of ocular disease by 50 percent, well, that is 
something the average guy can identify with, you know, rather 
than--you know, we talk so often in platitudes.
    We want to know where we came from, where we are going to 
go. We realize that ultimately someday, someday humanity will 
have to leave this planet or perish, and we know that, but it 
is so far away that the average family doesn't want to worry 
about that right now, you know, let 50,000 generations from now 
worry about that. But we have to make our contribution to 
getting us off this planet when the time comes as we go.
    But I find that it is so important to quantify space's 
direct benefits to people to gain that public support. Like I 
said, they want some of the sizzle. You know, the meat doesn't 
interest them right now. They want the sizzle like supermarkets 
sell.
    Dr. Grunsfeld. If the chairman would indulge me I have one 
more small story.
    Chairman Palazzo. The chairman will indulge you.
    Dr. Grunsfeld. Thank you. I was doing an astronaut visit--
so I am in a blue flight suit--to a small company outside of 
Chicago called Numerical Precision, and they are a machine 
shop, and we were walking through, and one of the engineers, 
technicians showed me a part that he was building that he was 
very proud of, and it was a little circular ring, and I don't 
know why but I recognized it, and it was--most of their work is 
defense work or much of it. And so I started asking him about 
it, and this is a company that had made tools that I used on 
the Hubble Space Telescope and they were very proud of that, 
and I was there to thank them.
    And so I asked him what program is that for, and he said I 
don't know. His manager said let me look, and he comes back and 
he says some NASA program, and I think okay, that has piqued my 
interest, you know, maybe I know this part. And it turns out it 
was a part for the James Webb Space Telescope. The story the 
plant manager had told me is that this part was very hard for 
them to make and it is made by a special technique involving 
machine tools that only the United States has been able to 
refine, and he said that by building this difficult part for 
the James Webb Space Telescope they developed new techniques 
and they had actually by using those techniques been able to 
attract a lot of business, and their biggest problem was not 
the new business but the ability to hire young people to run 
these machine tools, and he said that by working on NASA 
projects is one of his biggest draws to be able to bring in 
young technicians, and these are people with--high school 
graduates who like to use computers.
    Now, I have a son who is soon to be a high school graduate 
and he spends a lot of time on computers, a little bit 
different than we expect but he is very talented now at, you 
know, controlling computers for things like computer games, and 
he is now also the head of his robotics team in high school, 
which is a similar sort of thing. So we have plenty of young 
students who would be great at machining, which is now a very 
exciting field, and the James Webb Space Telescope helped 
contribute to this company being able to hire people, and I 
certainly think jobs are what a lot of people think about, and 
these are very high-paying jobs.
    Chairman Palazzo. The chair now recognizes Mr. Lucas.
    Mr. Lucas. Thank you, Mr. Chairman, and I appreciate the 
panel being here and their insights, and if we could for a 
moment slide perhaps back to a few more nuts and bolts.
    The challenge, I think, has been expressed rather clearly 
by all of you that James Webb is so unique or so different than 
Hubble in that whatever we put up has to work the first time. 
Those of us who were paying attention 25 years ago remember the 
initial trauma after the launch of Hubble, the miraculous 
repair job and the wondrous things accomplished from there and 
all of the service work and improvements and additions made, 
but this is a different creature. This is a one-time shot. So I 
listened very closely to Director Chaplain's comments about the 
seven years of testing and the various components and this and 
that and the other.
    Let us talk for a moment about this cryocooler business 
because my understanding is, we have to keep James Webb at an 
incredibly cool temperature to function, and that we are in 
effect creating technology as we go here or developing 
techniques to make this possible. Discuss for just a moment how 
complicated that particular issue, for instance, is, whoever 
would care to answer the question. Thank you, Mr. Grant.
    Mr. Grant. I will be happy to. At Northrop Grumman 
Aerospace Systems, we have been building space-qualified 
cryocoolers now for many, many years, and they have flown 
successfully on many missions, both scientific and 
meteorological, and so we build these cryocoolers that operate 
at very low frequencies or very low vibrations so they don't 
disturb the imaging system that they are attached to, and they 
have to operate very efficiently so they have a very efficient 
conversion of solar power to the mechanical compressor power. 
The unique elements of the MIRI cooler are, we have to do those 
things in addition to cooling far colder than we have put a 
space-qualified cooler at before. Coolers we build and operate 
today operate at about 70 degrees Kelvin. This one operates at 
6 degrees Kelvin. And the whole observatory is operating in the 
optics at about 40 degrees Kelvin. So the instrument is cooler 
than the optical background temperature.
    Mr. Lucas. And reminding us that zero Kelvin is absolute 
zero.
    Mr. Grant. Correct, All molecular motion stops. You know, 
it is very cold. So it has to operate very cold and has to 
operate very efficiently. It has to export very low export 
forces and it has to operate with the cooler separated from the 
cold head assembly on the instrument module by about 30 feet. 
So there is an array of technical complexities in this cooler 
that made it far more difficult than coolers we have built 
before.
    I would say the good news is--well, the program started, 
and there wasn't even going to be a cooler on it. It was going 
to be a dewer, a solid block of gas that would be frozen and 
then sublimated over time to cool the instrument. That would 
work, but it was very heavy and also runs out of gas. So the 
cooler has the possibility of operating in fact as some of ours 
have for decades.
    So we went to the cryocooler design in about 2006, if I 
recall, and since that time, we have made significant progress. 
Just this past year we got data that confirms its flight 
performance so we know it gets cold enough, it is efficient and 
has low exported forces.
    So we are at the point now in this development where most 
of the subassemblies have been delivered and this one last one 
is in its final stages of integration and test, so we are--it 
has been a very long, tough, challenging road for us to be on, 
but as we speak today, we are very close to the last delivery.
    Mr. Lucas. Mr. Mather, thinking back to 20-some years ago 
when all of the issues were addressed on Hubble and it became 
kind of a ``wow'' moment for most of the human race that cared, 
all goes well, all the targets are met, all the flight 
operations are smooth, we park it way out there in the proper 
place, everything switches on, are we going to have that 
magnitude of a ``wow'' moment again?
    Dr. Mather. I certainly expect so. I wouldn't be doing this 
if I didn't think so, and by the way, I wanted to add one thing 
to----
    Mr. Lucas. Please.
    Dr. Mather. --his testimony that only one of the 
instruments requires that cooler. The telescope and the other 
three instruments cool down by themselves just because they are 
hidden behind the big umbrella. So there is a risk but it is 
not a huge risk if there is any problem with that.
    So we are certainly going to point the telescope at 
beautiful things and get great pictures. We expect amazing 
discoveries ranging from the first stars and galaxies to the 
formation of stars and planets close to him in places like that 
beautiful eagle nebula. We certainly want to see those little 
exoplanets like Earth if there are any orbiting around stars 
way out there to see if they are wet, like do they have oceans. 
So there is this huge array of wonderful questions to answer, 
and I think nature may just cooperate and give us answers. So 
that is our plan, and I think it will be very exciting times 
for us.
    Mr. Lucas. So as they would say in the coffee shops back 
home, if something is winking at us, we will know it.
    Dr. Mather. Yes.
    Mr. Lucas. Thank you, gentlemen and ladies. I appreciate it 
very much. Thank you, Mr. Chairman.
    Chairman Palazzo. Thank you, Mr. Lucas. We enjoy talking 
about the nuts and bolts as much as Mr. Posey's steak and 
sizzle.
    I want to thank the witnesses for their testimony and the 
Members for their questions. The record will remain open for 
two weeks for additional written comments and written questions 
from Members.
    This hearing is adjourned.
    [Whereupon, at 11:34 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              

                   Answers to Post-Hearing Questions


Responses by Dr. John Grunsfeld


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Ms. Cristina Chaplain


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Mr. Jeffrey Grant


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. John Mather


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                              Appendix II

                              ----------                              


                   Additional Material for the Record




          Statement submitted by full Committee Ranking Member
                         Eddie Bernice Johnson

    Good morning. I want to join Chairman Palazzo and Ranking 
Member Edwards in welcoming our witnesses. I look forward to 
hearing from each of you today.
    We are here to discuss the James Webb Space Telescope-JWST-
which is scheduled to launch in October of 2018. This morning's 
hearing is not the first this Committee has held on JWST. We 
held a hearing in December 2011 after the project was replanned 
following an independent review that found significant cost and 
schedule growth. Today we will hear how well NASA and its main 
industry partner, Northrop Grumman, are sticking to that plan. 
And given the complexity involved in building and testing a 
telescope of JWST's magnitude, it should come as no surprise 
that we will also hear of the many challenges that need to be 
addressed before the project is completed. I hope we can be 
assured today that NASA and its partners are taking all 
necessary steps to keep JWST on track.
    We need to provide the necessary Congressional funding to 
ensure this project gets completed on time and on budget, 
consistent with the National Academies' decadal survey that 
ranked this telescope as the top priority for space-based 
astrophysics over a decade ago. I am pleased that Dr. Mather, 
the 2006 Nobel Laureate in physics, is here today to tell us 
about the transformational science that JWST will carry out, 
including making observations that will teach us about how 
galaxies, stars and planets formed--the very roots of our 
Universe. I also hope to hear about JWST's capabilities for 
studying extrasolar planets for clues that could signal the 
potential for life there. The nation has taken on an impressive 
challenge in developing, building, and completing JWST, and we 
need to be good stewards of our taxpayers' investment in this 
project.
    That said, I have no doubt that JWST's discoveries will 
rewrite the astronomy textbooks, just as the Hubble's science 
has already done. I can't imagine a better legacy. Because 
somewhere in a backyard, on a school playground, or in a 
bedroom with an open window on a dark starry night, there's a 
child who wonders what the Universe is all about, and JWST's 
observations will feed that child's imagination and hunger for 
knowledge.Thank you and I yield back the balance of my time.

                                 [all]
</pre></body></html>
